                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-01292-258




    Combined Assessment Program 

             Review of the 

    Bay Pines VA Healthcare System 

           Bay Pines, Florida 





August 28, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Bay Pines VA Healthcare System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                              CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Acute Ischemic Stroke Care ...................................................................................                  11

  CLC Resident Independence and Dignity ...............................................................                           13

  MRI Safety ..............................................................................................................       15


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ............................................................................................................        30





VA OIG Office of Healthcare Inspections
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 12, 2014.

Review Results:          The review covered seven activities.                   We made no
recommendations in the following two activities:

 Medication Management

 Magnetic Resonance Imaging Safety

The facility’s reported accomplishments were receiving the VA National Center for
Patient Safety Gold Cornerstone Award and being named as a Top Performer on Key
Quality Measures® by The Joint Commission.

Recommendations: We made recommendations in the following five activities:
Quality Management: Include most services in the review of electronic health record
quality. Ensure the Blood Usage Review Committee member from Surgery Service
consistently attends meetings.

Environment of Care: Store oxygen tanks on the 3C surgical, 5B medical, and
4A telemetry units in a manner that distinguishes between empty and full tanks. Lock
soiled utility rooms on the 5A medical, east and central community living center, and
medical and surgical intensive care units. Secure community living center doors after
hours. Include defibrillators in crash cart inspections on the dialysis and locked mental
health units, and document the inspections. Ensure that all designated same day
surgery and post-anesthesia care unit employees receive bloodborne pathogens
training annually and that all designated eye clinic employees receive eye laser safety
training every 2 years.

Coordination of Care: Identify post-discharge needs, and include them in discharge
planning. Provide individualized, patient-specific discharge instructions.

Acute Ischemic Stroke Care: Post stroke guidelines on the medical intensive care;
5B medical; and east, central, and west community living center units. Report to the
Veterans Health Administration the percent of eligible patients given tissue plasminogen
activator, the percent of patients with stroke symptoms who had the stroke scale
completed, and the percent of patients screened for difficulty swallowing before oral
intake.




VA OIG Office of Healthcare Inspections                                                          i
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Community Living Center Resident Independence and Dignity: Consistently complete
and document restorative nursing services according to clinician orders and/or
residents’ care plans. Provide all care planned/ordered assistive eating devices to
residents for use during meals.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–27, for the full
text of the Directors’ comments.) We consider recommendations 7, 8, and 11 closed.
We will follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through May 12, 2014,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we made in our


VA OIG Office of Healthcare Inspections                                                         1
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


previous CAP report (Combined Assessment Program Review of the Bay Pines VA
Healthcare System, Bay Pines, Florida, Report No. 12-00884-197, June 12, 2012).

During this review, we presented crime awareness briefings for 204 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
684 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Cornerstone Recognition Award
In November 2013, the VA National Center for Patient Safety awarded the facility the
Gold Cornerstone Award. The award recognized the facility’s work and efficiency in
completing root cause analysis processes related to health care quality and patient
safety.

Top Performer on Key Quality Measures®
The Joint Commission named the facility a Top Performer on Key Quality Measures® for
exemplary performance in using evidence-based clinical processes to improve care.
The facility was specifically recognized for its achievement on the measure sets for
heart attack, heart failure, pneumonia, and surgical care and was the only VA facility out
of 104 Florida public and private hospitals to earn the distinction.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                3
                                            CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Twelve months of EHR Committee meeting
       the EHR met selected requirements:                 minutes reviewed:
        A committee was responsible to review             The review of EHR quality did not include
          EHR quality.                                      EHRs from Geriatrics and Extended Care or
        Data were collected and analyzed at least          Primary Care Services.
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                           CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Four sets of Blood Usage Review Committee
       usage met selected requirements:                  meeting minutes reviewed:
        A committee with appropriate clinical            The clinical representative from Surgery
          membership met at least quarterly to review      Service attended only two of four quarterly
          blood/transfusions usage.                        meetings.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the review of electronic
health record quality includes most services.

2. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee member from Surgery Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                  5
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected two medical units, the surgical unit, the telemetry unit, two CLC units, the medical
intensive care unit, the surgical intensive care unit, the inpatient MH unit, the dialysis unit, the
chemotherapy unit, the SDS unit, the PACU, the eye clinic, and the emergency department.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 25 employee training records (9 SDS, 11 PACU, and 5 eye clinic).    The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM            Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.      Oxygen tanks on the 3C surgical, 5B medical,
                                                         and 4A telemetry units were not stored in a
                                                         manner that distinguished between empty
                                                         and full tanks.
                                                        Soiled utility rooms on the 5A medical unit,
                                                         the east and central CLC units, and the
                                                         medical and surgical intensive care units were
                                                         not locked.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.




VA OIG Office of Healthcare Inspections                                                                6
                                           CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


NM           Areas Reviewed for General EOC                                Findings
                         (continued)
 X     The facility complied with any additional       Local policy on the EOC management plan
       elements required by VHA, local policy, or      reviewed:
       other regulatory standards.                       While policy required that patient care areas
                                                           be secured after hours, the doors from the
                                                           CLC units to the two smoking porches and
                                                           the doors from the smoking porches to the
                                                           outside grounds were not secured, allowing
                                                           unauthorized access to the units 24 hours
                                                           per day.
                                                       Local policy on checking emergency carts and
                                                       defibrillators/pacemakers reviewed:
                                                        While policy required daily inspections of
                                                           crash carts and defibrillators and
                                                           documentation of inspections, on the dialysis
                                                           and locked MH units, crash cart inspections
                                                           did not include the defibrillators.
          Areas Reviewed for SDS and the PACU
 X     Designated SDS and PACU employees                Five of the 20 SDS and PACU employees did
       received bloodborne pathogens training            not receive bloodborne pathogens training
       during the past 12 months.                        during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
 X     Designated eye clinic employees received         Four of the five eye clinic employees did not
       laser safety training with the frequency          receive laser safety training within the past
       required by local policy.                         2 years.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.




VA OIG Office of Healthcare Inspections                                                                   7
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


NM      Areas Reviewed for Eye Clinic (continued)                         Findings
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3. We recommended that processes be strengthened to ensure that oxygen tanks on the
3C surgical, 5B medical, and 4A telemetry units are stored in a manner that distinguishes
between empty and full tanks and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that soiled utility rooms on the
5A medical, east and central community living center, and medical and surgical intensive care
units are locked and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that community living center
doors are secured after hours and that compliance be monitored.

6. We recommended that processes be strengthened to ensure crash carts inspections on the
dialysis and locked mental health units include the defibrillators and are documented and that
compliance be monitored.

7. We recommended that processes be strengthened to ensure that all designated same day
surgery and post-anesthesia care unit employees receive bloodborne pathogens training
annually and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that all designated eye clinic
employees receive eye laser safety training every 2 years and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                8
                                            CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 25 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  9
                                           CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 33 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                   Areas Reviewed                                         Findings
 X    Patients’ post-discharge needs were identified,    Eight EHRs (24 percent) did not contain
      and discharge planning addressed the                documentation that clinicians addressed
      identified needs.                                   post-discharge needs related to
                                                          restricted/special diets or wound
                                                          care/dressing changes.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
 X    The facility complied with any additional         Local policy on patient treatment plan of care
      elements required by VHA or local policy.         reviewed:
                                                         While local policy required discharge plans to
                                                          be individualized and appropriate to the
                                                          patient’s needs, none of the EHRs contained
                                                          individualized, patient-specific discharge
                                                          instructions.


Recommendations

9. We recommended that processes be strengthened to ensure that clinicians identify
post-discharge needs and include them in discharge planning.

10. We recommended that processes be strengthened to ensure that clinicians provide
individualized, patient-specific discharge instructions.




VA OIG Office of Healthcare Inspections                                                                10
                                            CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 37 randomly selected patients who experienced
stroke symptoms, and 15 employee training records (5 emergency department, 5 intensive care
unit, and 5 critical care unit), and we conversed with key employees. We also conducted onsite
inspections of the emergency department, two critical care units, and five acute care inpatient
units. The table below shows the areas reviewed for this topic. The areas marked as NM did
not meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
       Clinicians completed the National Institutes of
       Health stroke scale for each patient within the
       expected timeframe.
       Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
 X     Stroke guidelines were posted in all areas          Stroke guidelines were not posted on one
       where patients may present with stroke               critical care unit and four acute care inpatient
       symptoms.                                            units.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
       Clinicians provided printed stroke education to
       patients upon discharge.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were reported to VHA:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                               who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                               swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that stroke guidelines be posted on the medical intensive care;
5B medical; and east, central, and west CLC units.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


12. We recommended that the facility report to VHA the percent of eligible patients given tissue
plasminogen activator, the percent of patients with stroke symptoms who had the stroke scale
completed, and the percent of patients screened for difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                               12
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 11 EHRs of residents (10 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed 2 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented           In 8 of the 10 applicable EHRs, there was
       restorative nursing services, including active     inconsistent documentation that facility staff
       and passive range of motion, bed mobility,         completed restorative nursing services
       transfer, and walking activities, according to     according to clinician orders and/or residents’
       clinician orders and residents’ care plans.        care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 X     Care planned/ordered assistive eating devices     Three of the five assistive eating devices care
       were provided to residents at meal times.          planned/ordered were not provided to
                                                          residents.
       Required activities were performed during
       resident meal periods.



VA OIG Office of Healthcare Inspections                                                                13
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


NM        Areas Reviewed for Assistive Eating                             Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.


Recommendations

13. We recommended that processes be strengthened to ensure that staff consistently
complete and document restorative nursing services according to clinician orders and/or
residents’ care plans and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that all care planned/ordered
assistive eating devices are provided to residents for use during meals.




VA OIG Office of Healthcare Inspections                                                               14
                                          CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 44 employees (24 randomly
selected Level 1 ancillary staff and 20 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of three MRI areas. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM                     Areas Reviewed                                     Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                               15
                                           CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                              Appendix A


     Facility Profile (Bay Pines/516) FY 2014 through May 20141
Type of Organization                                                            Secondary
Complexity Level                                                                1a-High complexity
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $625.5
Number of:
    Unique Patients                                                            92,597
    Outpatient Visits                                                          911,540
    Unique Employees2                                                          3,239
Type and Number of Operating Beds:
    Hospital                                                                   186
    CLC                                                                        112
    MH                                                                         99
Average Daily Census:
    Hospital                                                                   143
    CLC                                                                        96
    MH                                                                         88
Number of Community Based Outpatient Clinics                                    8
Location(s)/Station Number(s)                                                   Lee County/516BZ
                                                                                Sarasota/516GA
                                                                                St. Petersburg/516GB
                                                                                Palm Harbor/516GC
                                                                                Bradenton/516GD
                                                                                Port Charlotte/516GE
                                                                                Naples/516GF
                                                                                Sebring/516GH
VISN Number                                                                     8




1
    All data is for FY 2014 through May 2014. 

2
    Unique employees involved in direct medical care (cost center 8200). 



VA OIG Office of Healthcare Inspections                                                                16
                                                                     CAP Review of the Bay Pines Healthcare System, Bay Pines, FL
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                            CAP Review of the Bay Pines Healthcare System, Bay Pines, FL



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                              18
                                                                                                      CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


                                                                         Metric Definitions
 Measure                       Definition                                                                             Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)      A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                             A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                   A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                            A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)         A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                          A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                      A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                 A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                   A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                         A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                   A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)      A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 PSI                           Patient safety indicator                                                               A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                       A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                         A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                   A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                  A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction              A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                 A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                    A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                         A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                             19
                                     CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                        Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       July 2, 2014

          From:        Director, VA Sunshine Healthcare Network (10N8)

       Subject: 	      CAP Review of the Bay Pines VA Healthcare System,
                       Bay Pines, FL

             To: 	     Director, Washington, DC, Office of Healthcare Inspections
                       (54DC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CAP Review of the Bay Pines VA Healthcare System.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report. Thank you!


             (original signed by:)
       Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                          20
                                    CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       July 17, 2014

          From:        Director, Bay Pines VA Healthcare System (516/00)

       Subject:        CAP Review of the Bay Pines VA Healthcare System,
                       Bay Pines, FL

             To:       Director, VA Sunshine Healthcare Network (10N8)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the OIG CAP review.

       2. I appreciate the opportunity for this review as a continuing process to
          improve the care to Veterans. Thank you.


            (original signed by:)
       SUZANNE M. KLINKER




VA OIG Office of Healthcare Inspections                                                         21
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the review of electronic health record quality includes most services.

Concur

Target date for completion: 08/30/14

Facility response: Electronic Health Record (EHR) review process, tools and reporting
requirements for Geriatrics and Extended Care (GEC) and Primary Care (PC) services
will be updated and implemented to ensure compliance with VHA and current facility
health record review practice. Applicable GEC and PC staff will be educated on the
EHR quality review, reporting requirements and updated processes and tools by August
2014. Quarterly reviews will be submitted and analyzed by the Medical Record
Subcommittee during the next identified clinical service quarterly reporting cycle that
follows August 2014 and reported to the Information and Data Management Committee.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee member from Surgery Service consistently attends
meetings.

Concur

Target date for completion: 07/30/14

Facility response: Designated primary and backup members from Surgery Service have
been identified to attend the Blood Usage Review Committee (BURC). The BURC
meets quarterly and the surgical service primary representative and will attend the
meeting starting July 2014. Compliance with attendance will be monitored by Surgery
Service via review of committee minutes (attendance sheet) and documented on the
Ongoing Professional Practice Evaluation (OPPE) for the primary provider assigned.
The Surgery Service participation and attendance will be reported to the Medical
Executive Council.




VA OIG Office of Healthcare Inspections                                                        22
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Recommendation 3. We recommended that processes be strengthened to ensure that
oxygen tanks on the 3C surgical, 5B medical, and the 4A telemetry units are stored in a
manner that distinguishes between empty and full tanks and that compliance be
monitored.

Concur

Target date for completion: 07/30/14

Facility response: The Safety Manager will review each location, 3 C, 5 B and 4 A, to
ensure oxygen tanks are stored to distinguish between empty and full and to provide
additional storage systems, and signage as needed. Clinical staff in each location will
receive education regarding the proper storage and handling of portable oxygen tanks.
Respiratory Therapy and Logistics staff will receive education regarding delivery,
storage levels and removal of empty tanks. Compliance will continue to be monitored
during Environment of Care rounds and reported to Environment of Care Committee.

Recommendation 4. We recommended that processes be strengthened to ensure that
soiled utility rooms on the 5A medical, east and central community living center, and
medical and surgical intensive care units are locked and that compliance be monitored.

Concur

Target date for completion: 7/30/14

Facility response: The identified soiled utility room doors and locks will be installed in
July 2014 and upon installment, staff will be educated on the use of the locks. The
locks are self-locking therefore the doors are always locked. Compliance will be
monitored during Environment of Care rounds and reported to Environment of Care
Committee.

Recommendation 5. We recommended that processes be strengthened to ensure that
community living center doors are secured after hours and that compliance be
monitored.

Concur

Target date for completion: 08/15/14

Facility response: The Community Living Center (CLC) doors leading to the two
smoking porches cannot be automatically secured at this time due the ongoing Security
System Upgrade Project (Minor Construction Project) and the potential for violation of
National Fire Protection Association (NFPA) Life Safety Code, section 19.2, Means of
Egress Requirements and Chapter 7 Means of Egress. Therefore, the following interim
Security measures will be taken.




VA OIG Office of Healthcare Inspections                                                        23
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


   1. CLC staff members will continue to be vigilant in their monitoring of all persons in
      CLC who are not CLC Residents and/or who are not identified with an official VA
      Identification Badge.
   2. Police will continue their foot patrols throughout the CLC a minimum of once
      every two hours between the hours of 9:00 PM and 5:00 AM; more frequent foot
      patrols will occur depending on the volume of other police incidents occurring
      elsewhere on campus.
   3. Eight (8) CLC video cameras located on the porch and two (2) are located in the
      rear door entry of the porch will be monitored 24/7 by police operations.
   4. All observations of access into the CLC via the smoking porches by individuals
      other than CLC Residents or VA staff will require an immediate response by
      Police Service to the designated CLC areas.
   5. Validation of CLC staff awareness, as well as the monitoring of Police foot
      patrols, will be reported at the monthly Environment of Care Committee
      scheduled for July 16, 2014.

The above interim security measures will be undertaken until such time that the CLC
doors can be physically secured without violation of life safety codes. Engineering
estimates the work to be performed to modify the existing doors and locking
mechanisms can be completed by August 15, 2014; this will provide for the manual
locking of CLC doors and require that Interim Life Safety Measures (ILSM) are
instituted. It is important to note that within the 30 day time frame, it is likely that the
Security System Upgrade Project (Minor Construction Project) may actually be in Final
Acceptance phase. If this occurs, then BPVAHCS will proceed with the necessary
security system modifications that would provide for electronic locking and emergency
release functions that fully comply with NFPA Life Safety Codes.

Recommendation 6. We recommended that processes be strengthened to ensure
crash carts inspections on the dialysis and locked mental health units include the
defibrillators and are documented and that compliance be monitored.

Concur

Target date for completion: 10/01/14

Facility response: Nursing staff has completed training on the code cart checks and
defibrillators. Nursing Service has initiated weekly (random) spot checks of each
defibrillator in the dialysis and psychiatry units to validate that staff are checking the
defibrillators, with June 2014 compliance at 100%. The nurse managers will generate a
report to their Chief Nurse for each area and it will be presented at the weekly Nursing
Operations meeting. This item will be monitored until (3) consecutive months of
90% compliance are achieved.




VA OIG Office of Healthcare Inspections                                                        24
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Recommendation 7. We recommended that processes be strengthened to ensure that
all designated same day surgery and post-anesthesia care unit employees receive
bloodborne pathogens training annually and that compliance be monitored.

Concur

Target date for completion: 06/17/14

Facility response: As of June 17, 2014, all Ambulatory Surgery Unit (ASU) and
Post-Anesthesia Care Unit (PACU) staff identified during the review has completed the
required blood borne pathogen training, TMS course item VA 1722107 “Infection
Control Update-Strategies for Prevention.” The Chief of ASU and PACU and the Chief,
EMS will continue to monitor staff TMS compliance with deficiency reports to ensure
annual blood borne pathogen training.

Recommendation 8. We recommended that processes be strengthened to ensure that
all designated eye clinic employees receive eye laser safety training every 2 years and
that compliance be monitored.

Concur

Target date for completion: 05/16/14

Facility response: The Biomedical Equipment Specialist conducted laser safety training
for all five providers in April 2014 with 100% compliance. The attendance roster was
identified as a “meeting” and not “training.” Surgery Service will collaborate with
Biomedical Engineering when training is provided and obtain attendance roster. For
tracking purposes, a self-certification in TMS will be used for all Laser Safety Training
effective immediately. The providers will then self-certify in TMS that training has been
completed.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians identify post-discharge needs and include them in discharge planning.

Concur

Target date for completion: 08/01/14

Facility response: Discharge instruction processes are being updated to ensure
patients’ identified post-discharge needs are included and communicated in discharge
planning. Hand off communication process is being strengthened to include inpatient
and PACT team representatives to provide patient specific instructions for
post-discharge care. All applicable inpatient and PACT team representatives will be
educated on the updated discharge planning processes and post-discharge follow up
care by July 31, 2014.




VA OIG Office of Healthcare Inspections                                                        25
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians provide individualized, patient-specific discharge instructions.

Concur

Target date for completion: 11/01/14

Facility response: Discharge instructions templates are being updated to
include all services and patient specific recommendations as per VAHCS
Memorandum 516-09-00-003. All applicable inpatient staff will be educated on the
updated discharge planning processes, discharge instruction requirements and facility
policies, and the revised templates by August 31, 2014.

Compliance with requirements for individualized discharge instructions will be monitored
by reviewing at least 30 electronic health records, from 30 randomly selected unique
patients. Monthly audits will continue until greater than 90% compliance is sustained
and then will be completed randomly thereafter. Monthly auditing results will be
reported to the Medical Executive Council.

Recommendation 11. We recommended that stroke guidelines be posted on the
medical intensive care; 5B medical; and east, central, and west CLC units.

Concur

Target date for completion: 06/13/14

Facility response: As of June 13, 2014, the stroke guidelines have been posted to all
units within the facility. The Stroke Subcommittee will annually review the guidelines
and assess each area to assure continued compliance with the availability of stroke
guidelines posted to each unit.

Recommendation 12. We recommended that the facility report to VHA the percent of
eligible patients given tissue plasminogen activator, the percent of patients with stroke
symptoms who had the stroke scale completed, and the percent of patients screened
for difficulty swallowing before oral intake.

Concur

Target date for completion: 08/30/14

Facility response: Clarification of “reported to VHA” was provided by the inspector to
include reporting to any committees. On July 2, 2014, the Chief of Neurology presented
a charter to the Clinical Practice Committee to formalize the Stroke Subcommittee.
Effective August 2014, and ongoing quarterly, the Chair of the Stroke Subcommittee will
present stroke data including percent of eligible patients given tissue plasminogen
activator, the percent of patients with stroke symptoms who had the stroke scale
completed, and the percent of patients screened for difficulty swallowing before oral



VA OIG Office of Healthcare Inspections                                                        26
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL


intake and include pertinent findings, goals, action plans, to the Clinical Practice
Committee.

Recommendation 13. We recommended that processes be strengthened to ensure
that staff consistently complete and document restorative nursing services according to
clinician orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: 10/01/14

Facility response: All Community Living Care Center Staff will be re-educated on the
need for documentation of restorative care as indicated on the care plan. A minimum of
weekly documentation will be completed indicating the number of minutes and
frequency of restorative care delivered. Compliance audits will be maintained at
90% for three months and then will be conducted randomly. The Restorative Nurse will
monitor compliance monthly and report at the Geriatrics and Extended Care (GEC)
Performance Improvement Committee.

Recommendation 14. We recommended that processes be strengthened to ensure
that all care planned/ordered assistive eating devices are provided to residents for use
during meals.

Concur

Target date for completion: 09/01/14

Facility response: Nutrition and Food Service (NFS) purchased additional scoop plates
for the Community Living Center (CLC). The extra scoop plates are now stored in the
CLC for use when needed. NFS educated staff members and implemented an assistive
feeding devices tray accuracy monitor. NFS will check the individual tray against the
tray ticket to determine that the assistive feeding devices are required on the tray. As of
May 2014, NFS have checked CLC at 5 different meals with 100% accuracy on
assistive feeding devices. This item will be monitored until three (3) consecutive
months to assure 100% compliance.




VA OIG Office of Healthcare Inspections                                                        27
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Katharine Foster, RN, Team Leader
Contributors            Bruce Barnes
                        Lisa Barnes, MSW
                        Gail Bozzelli, RN
                        Myra Conway, RN
                        Donna Giroux, RN
                        Frank Keslof, EMT, MHA
                        Randall Snow, JD
                        Sean Keen, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        28
                                   CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, Bay Pines VA Healthcare System (516/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Gus M. Bilirakis, Vern Buchanan, Kathy Castor,
 Tom Rooney


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        29
                                        CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                           Appendix G

                                                Endnotes

a
   References used for this topic included:

   VHA Directive 2009-043, Quality Management System, September 11, 2009. 

   VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

   VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

   VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

   VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

    Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
   References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
    American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
    and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
   References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.
 
d
   References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

    July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
   The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
    January 31, 2013.
f
   References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
    Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                         30
                                               CAP Review of the Bay Pines VA Healthcare System, Bay Pines, FL



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          31
